Nos. 19-267, 19-348

In the Supreme Court of the United States
__________________

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.
__________________
ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,
Respondent.
__________________
On Writs of Certiorari to the United States
Court of Appeals for the Ninth Circuit

__________________

BRIEF OF THE AMERICAN JEWISH COMMITTEE
AND THE UNITED SYNAGOGUE OF
CONSERVATIVE JUDAISM AS AMICI CURIAE IN
SUPPORT OF PETITIONERS

__________________

STEVEN B. FEIRSON
MICAH BROWN
DECHERT LLP
Cira Centre
2929 Arch Street
Philadelphia, PA 19104
(215) 994-4000

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
michael.mcginley@dechert.com

Counsel for Amici Curiae
February 10, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. The Lower Court’s Rigid Application Of The
Ministerial Exception Threatens The First
Amendment Rights Of Jewish Organizations . . . 4
II. The First Amendment And This Court’s
Precedents Require A Qualitative Application Of
The Ministerial Exception . . . . . . . . . . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ii
TABLE OF AUTHORITIES
CASES
Grusgott v. Milwaukee Jewish Day School, Inc.,
260 F. Supp. 3d 1052 (E.D. Wis. 2017), aff’d,
882 F.3d 655 (7th Cir. 2018). . . . . . . . . . . . . . . . 15
Hosanna-Tabor Evangelical Lutheran Church
and School v. EEOC, 565 U.S. 171 (2012) . passim
LeBoon v. Lancaster Jewish Cmty. Ctr. Ass’n,
503 F.3d 217 (3d Cir. 2007) . . . . . . . . . . . . . . . . 13
NLRB v. Catholic Bishop of Chicago,
440 U.S. 490 (1979). . . . . . . . . . . . . . . . . . . . . . . . 8
Shaliehsabou v. Hebrew Home of Greater
Washington, Inc., 363 F.3d 299 (4th Cir. 2004) . 13
Su v. Stephen S. Wise Temple,
32 Cal. App. 5th 1159 (Ct. App. 2019) . . . . . . . . 13
CONSTITUTION
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
Michael W. McConnell, The Origins and Historical
Understanding of Free Exercise of Religion, 103
HARV. L. REV. 1409 (1990) . . . . . . . . . . . . . . . . . . 5
Mark Oppenheimer, Religious Divorce Dispute
Leads to Secular Protest, N.Y. TIMES (Jan. 3,
2011), https://www.nytimes.com/2011/01/04/us/
04divorce.html . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
ORA, https://www.getora.org. . . . . . . . . . . . . . . . . . . 9

1
INTEREST OF THE AMICI CURIAE1
The American Jewish Committee (“AJC”), a
national organization of over 125,000 members and
supporters and twenty-six regional offices, was founded
in 1906 to protect the civil and religious rights of Jews.
AJC believes that the most effective way to achieve
that goal is to safeguard the civil and religious rights of
all Americans. AJC has a long tradition of defending
Americans’ religious liberty, and believes that
maintaining church-state separation through limiting
government entanglement with religion is the surest
guarantor of that liberty. With these paramount First
Amendment rights in mind, AJC urges the Court to
find that the Ninth Circuit erred when it applied an
overly rigid, quantitative test that overemphasized an
employee’s title to deny Petitioners protection under
the “ministerial exception” that this Court recognized
in Hosanna-Tabor Evangelical Lutheran Church and
School v. EEOC, 565 U.S. 171 (2012). The ministerial
exception safeguards the right of religious institutions
to select clergy free from government interference.
Rooted in both of the First Amendment’s Religion
Clauses, the ministerial exception is necessary to
preserve the guarantee of religious liberty. An
application of the ministerial exception that
overemphasizes an employee’s title or arbitrary factors
such as the comparative quantity of time spent on

1

Pursuant to Rule 37.6, amici curiae affirm that no counsel for a
party authored this brief in whole or in part, and no person other
than amici curiae, its members, and its counsel has made a
monetary contribution to the preparation or submission of this
brief. All parties consented to the filing of the brief.

2
activities the court deems sufficiently “religious”
severely curtails that freedom. This Court should make
clear that the Ninth Circuit’s analysis was out of step
with the First Amendment and reaffirm that the
proper application of the ministerial exception requires
a functional, holistic analysis.
Amicus curiae The United Synagogue of
Conservative Judaism (“USCJ”) is the congregational
arm of Conservative Judaism in North America. USCJ
and its 561 member congregations employ thousands of
individuals, with various job titles, to operate their
synagogues, religious schools, camps, United
Synagogue Youth programs, adult education programs,
“gap” year pre-college programs for teens, Israel and
European travel programs, and the like, and USCJ also
represents the interest of those synagogues and their
individual members in the religious freedom of all
Jewish institutions in their communities, such as the
Conservative Jewish Day Schools and the Ramah
Camps. All of these programs are operated in
accordance with Conservative Jewish religious
practices and teaching, and USCJ accordingly joins in
this brief to protect its and their freedom to employ
individuals whose values and religious beliefs and
practices are consistent with those of the Conservative
Movement.

3
SUMMARY OF THE ARGUMENT
The impact of these cases reaches far beyond
Catholic school teachers in California. The lower
court’s rigid approach to the ministerial exception
would threaten the religious freedom of Jewish schools
and organizations (and thousands of other religious
groups) throughout the country. Those groups,
including the amici curiae who submit this brief, exist
to pass on, promote, and live out their faith. As a
result, their First Amendment right to freely exercise
their religion without government interference depends
on the autonomy to choose who will lead their faithbased efforts and express religious beliefs on their
behalf. A ministerial exception that overemphasizes an
employee’s title or artificially seeks to quantify the
employee’s time spent on exclusively ecclesiastical
tasks ignores the reality that faith is infused
throughout religious schools and organizations. The
measure of an individual’s religious duties may not be
reflected in her title or be amenable to some neat
accounting of hours. Instead, it requires a holistic,
qualitative analysis rooted in common sense and dayto-day reality. That is what the First Amendment
demands and it is what this Court provided in
Hosanna-Tabor Evangelical Lutheran Church and
School v. EEOC, 565 U.S. 171 (2012). It is thus
imperative to the religious liberty of the amici Jewish
organizations and the thousands of other faith-based
organizations like them that this Court reaffirm those
principles and reverse the decisions below.

4
ARGUMENT
I. The Lower Court’s Rigid Application Of The
Ministerial Exception Threatens The First
Amendment Rights Of Jewish Organizations.
Recognizing religious organizations’ need for
autonomy over critical decisions that impact their
ability to propound, transmit, and defend the principles
of their faith, in Hosanna-Tabor Evangelical Lutheran
Church and School v. EEOC, this Court held that the
First Amendment’s “Religion Clauses bar the
government from interfering with the decision of a
religious group to fire one of its ministers.” 565 U.S.
171, 181 (2012). The decision emphasized that “the
First Amendment . . . gives special solicitude to the
rights of religious organizations.” Id. at 189. As the
Court explained, the Free Exercise Clause “protects a
religious group’s right to shape its own faith and
mission through its appointments,” while the
Establishment Clause “prohibits government
involvement in such ecclesiastical decisions.” Id. at
188–89. As a result, “the ministerial exception is not
limited to the head of a religious congregation,” and it
requires a qualitative assessment of the employees’
religious functions. Id. at 190.
Those principles are rooted not only in the text of
the First Amendment, but also the history that led to
its adoption. Many of the earliest colonists came to this
continent in search of the freedom to shape their
religious practice, and the liberty to choose their
ecclesiastical message and messengers independent of
government control. When the founding generation
established our Republic, they were determined that

5
the federal government could neither forbid nor compel
religious practice, nor favor any religion over any other.
See Michael W. McConnell, The Origins and Historical
Understanding of Free Exercise of Religion, 103 HARV.
L. REV. 1409, 1515–16 (1990).
The ministerial
exception gives life to these guarantees by preserving
religious liberty and preventing government
encroachment on ecclesiastical matters.
Despite these fundamental constitutional principles
and this Court’s clear mandate in Hosanna-Tabor,
lower courts have struggled to properly define the
contours of the ministerial exception. Especially in the
context of religious education and social services, some
courts, like the lower court here, have relied on an
overly mechanistic approach that unduly emphasizes
formal titles and relies excessively on the quantum of
time spent exclusively on formal religious teaching.
Rather than applying the holistic and qualitative
analysis that the First Amendment and this Court’s
precedents demand, some courts have employed a
check-the-box approach that denies reality and
common sense to refuse protection where the doctrine
should plainly apply. The lower court’s decisions here
illustrate that troubling trend.
The consequences of such a blinkered application of
the doctrine are particularly concerning to the Jewish
organizations represented by amici curiae. Quite
obviously, the Constitution prohibits the government
from interfering with a synagogue’s decision on which
rabbi should lead its congregation. But the First
Amendment’s protections are not limited to such
obvious examples. A Jewish school or social services

6
provider forced against its will to employ certain
individuals whose job is to exhibit and transmit the
principles of the Jewish faith would likewise lose its
constitutionally protected ability to guide the religious
mission of the organization. Yet that is precisely the
regime that the lower court’s analysis threatens to
impose by placing outsized weight on an employee’s
formal title or the precise amount of time spent on
exclusively theological activities, as opposed to the
overall essential functions they actually are called upon
to perform.
The reality is that Jewish congregations are much
more than one rabbi conducting religious services for
those who come to synagogue. Rather, they are
extended religious communities. As with the Catholic
communities at the center of these cases, the
community built around a single synagogue might
include an associated school, community center,
summer camp, adult education classes, lecture series,
and charity or outreach organizations. Each element
of that community is devoted, in some way, to the
preservation of the Jewish faith and to living out its
tenets and traditions. As a result, a Jewish community
might have only a single rabbi, but employ dozens of
teachers, counsellors, administrators and others whose
primary duties are centered on the propagation and
implementation of the Jewish faith. The Ninth
Circuit’s test would risk excluding all of these critically
important roles, despite the fact that government
interference in those employment decisions plainly
would deny the organizations “control over the
selection of those who will personify [their] beliefs.”
Hosanna-Tabor, 565 U.S. at 188.

7
Moreover, a test like the Ninth Circuit’s that
overemphasizes an employee’s formal title would invite
(rather than avoid) Establishment Clause concerns by
disadvantaging faiths that do not recognize or
emphasize the concept of ordination. “[M]ost faiths do
not employ the term ‘minister,’ and some eschew the
concept of formal ordination.” Id. at 202 (Alito, J.,
concurring). While Judaism recognizes rabbis as
leaders of their congregations, their title reflects their
qualification to serve in that capacity, not a
sacramental ordination akin to the Catholic priesthood.
And others who play a critical role in conveying,
defending, and promoting the faith typically are not
bestowed with “ministerial” sounding titles. Imposing
a requirement that religions must adopt such titles in
order to receive protection under the ministerial
exception would be a patent violation of the
Establishment Clause.
A proper application of the ministerial exception is
especially important in the context of religious
education—and that is particularly so in the Jewish
faith. “When it comes to the expression and inculcation
of religious doctrine, there can be no doubt that the
messenger matters.” Id. at 201. In Judaism, the title
“rabbi” literally means “teacher.” This should hardly
be surprising since the Jewish faith’s survival has
always depended on the teaching of its history, rituals,
and beliefs. As a result, a teacher at a Jewish school
clearly helps “shape” the “faith and mission” of the
organization. Id. at 188 (majority opinion). And the
ministerial exception plays an important role in
protecting that “critical process of communicating the
faith.” Id. at 199 (Alito, J., concurring).

8
By design, religion infuses every class in a religious
school. Courses such as history are taught through the
lens of the religion that operates the school. For
instance, in the Jewish faith, religious holidays and
traditions are often rooted in historical events:
Hanukkah celebrates the Maccabean Revolt, while
Passover harkens back to the Exodus from Egypt. The
teaching of those events and traditions in a Jewish
school will necessarily involve religious instruction.
Even in ostensibly secular fields, such as science and
math—which deal with, among other things, the
ordering of the universe—core religious values still
impact the view of the substantive information being
taught and inform classroom discipline, ethics, and
overall pedagogy. “In terms of potential for involving
some aspect of faith or morals in secular subjects, a
textbook’s contents is ascertainable, but a teacher’s
handling of a subject is not.” NLRB v. Catholic Bishop
of Chicago, 440 U.S. 490, 501 (1979) (citations and
emphasis omitted). In schools operated by religious
groups, “[r]eligious authority necessarily pervades the
school system.” Id. Indeed, that is often why parents
choose to send their children to religious schools in the
first place.
The Ninth Circuit’s rigid test also threatens the
religious autonomy of Jewish non-profit organizations
and charities. Indeed, the Court needs to look no
further than the Jewish non-profit organizations that
comprise amici here to understand the negative impact
that the Ninth Circuit’s crabbed approach would have
on their ability to “shape” the “faith and mission” of the
organizations. Hosanna-Tabor, 565 U.S. at 188. Amici
exist to advocate for the Jewish faith, fight

9
antisemitism, promote religious tolerance, and
safeguard the religious freedom of the Jewish people.
Autonomy over choosing the individuals who lead these
organizations is essential to ensuring that they are able
to freely exercise their faith without government
interference—which is precisely what the ministerial
exception provides.
In addition, across the Nation, Jewish charitable
organizations fulfill vital community and social services
for their members. Like religious schools, the mission
of these organizations is infused with faith.
For
example, the Organization for the Resolution of Agunot
(ORA) is a 501(c)(3) non-profit organization which
focuses on outreach to Jewish women who have been
civilly divorced, but whose ex-husbands refuse to grant
them a get, or religious divorce. In the Jewish faith,
the withholding by a recalcitrant husband of a get
imposes significant social disadvantages on the wife,
and is considered by some to be a form of domestic
abuse. Mark Oppenheimer, Religious Divorce Dispute
Leads to Secular Protest, N.Y. TIMES (Jan. 3, 2011),
https://www.nytimes.com/2011/01/04/us/04divorce.html.
ORA helps persuade husbands to grant a get, offers
emotional counseling, and provides financial support.
ORA, https://www.getora.org/what-we-do (last visited
Feb. 7, 2020). “ORA works within the parameters of
Jewish law and civil law to advocate for the timely and
unconditional issuance of a get.” ORA, https://www.getora.org
/about-us (last visited Feb. 7, 2020).
Obviously, not all employees of these charities hold
the title of “rabbi.” However, while employees may be
called “caseworker” or “counselor,” there should be no

10
doubt that a caseworker who provides counselling and
advocacy for Jewish women within the parameters of
Jewish law, or provides family services as a
commitment to Jewish values, functionally fulfills a
ministerial role. Yet a court applying a rigid test that
overemphasizes an employee’s title at the expense of
analyzing the actual role of the employee would permit
the government to disrupt the organization’s freedom
to determine who will perform that sensitive religious
task. The same is true for many other, non-Jewish
organizations. For instance, Baptist hospitals and
Catholic homeless shelters perform their missions as
an answer to a higher calling. Not every employee
performs substantial religious duties, but those who do
often have no formal ordination or ecclesiastical title.
That does not change the fact that the religious
organization “shape[s] its own faith and mission
through [those] appointments.” Hosanna-Tabor, 565
U.S. at 188. Because an employee’s role is defined by
their functions and not merely their formal title, it is
critical for the test articulated by this Court to focus on
the day-to-day reality of those functions when applying
the ministerial exception.
II. The First Amendment And This Court’s
Precedents Require A Qualitative Application
Of The Ministerial Exception.
The First Amendment principles that animate the
ministerial exception require courts to apply the
doctrine through a qualitative analysis—rather than
through a quantitative analysis that elevates form over
substance. As the Court emphasized in HosannaTabor, “the ministerial exception is not limited to the

11
head of a religious congregation,” and the doctrine is
not amenable to “a rigid formula for deciding when an
employee qualifies as a minister.” 565 U.S. at 190.
Instead, in order to ensure that religious organizations
like amici here receive the protections enshrined in the
First Amendment, a functional, qualitative analysis is
necessary.
This Court’s decision in Hosanna-Tabor eschewed
the sort of rigid, quantitative analysis that the Ninth
Circuit adopted below—and for good reason. Although
the Sixth Circuit erred in Hosanna-Tabor by affording
no weight to the employee’s title, the Ninth Circuit
erred in these cases by affording too much weight to
that factor. While concluding that an employee’s title
is one factor to consider in the analysis, this Court’s
decision in Hosanna-Tabor was quick to emphasize
that it is also critical to consider whether “a recognized
religious mission underlie[s] the description of the
employee’s position.” Id. at 193. Likewise, the Court
rejected the sort of quantitative analysis that the Ninth
Circuit employed below, when it held that the issue “is
not one that can be resolved by a stopwatch. The
amount of time an employee spends on particular
activities is relevant in assessing that employee’s
status, but that factor cannot be considered in
isolation, without regard to the nature of the religious
functions performed and the other considerations”
articulated by the Court. Id. at 193–94 (emphasis
added). In short, the Court’s unanimous opinion in
Hosanna-Tabor was crystal clear that, in order to
preserve religious organizations’ autonomy, courts
must apply the ministerial exception in a holistic,
qualitative manner.

12
Yet, the Ninth Circuit did precisely the opposite
here.
In Biel v. St. James School, the court
acknowledged that the plaintiff “taught lessons on the
Catholic faith four days a week [and] incorporated
religious themes and symbols into her overall
classroom environment and curriculum,” StJ.APP.12a,
but nonetheless focused its analysis almost exclusively
on her “education, qualifications, and employment
arrangements,” StJ.APP.11a, to determine that she
was not a “minister.” Similarly, in Morrissey-Berru v.
Our Lady of Guadalupe School, the court acknowledged
that the plaintiff “did have significant religious
responsibilities . . . . She committed to incorporate
Catholic values and teaching into her curriculum . . .
led her students in daily prayer, was in charge of
liturgy planning for a monthly mass, and directed and
produced a performance of her students during the
School’s Easter celebration.” OLG.APP.3a. However,
because her “formal title of ‘Teacher’ was secular,” the
court determined she was not within the exception. In
these cases the Ninth Circuit employed an overly
formalistic test, disregarding the functional nature of
the employees’ religious duties.2

2

Because, as noted above, rabbi means “teacher,” the simplistic
notion that the unadorned title “teacher” connotes a purely secular
role is especially flawed in the context of Judaism. If title were as
dispositive as the Ninth Circuit treated it to be, then the title of
“teacher” in a Jewish school should always cut decisively in favor
of protection. The proper test, however, is not so wooden as to
blindly grant protection with respect to all “teachers” in a Jewish
school while denying it with respect to all those with an identical
title in a Catholic school.

13
The same reasoning has been applied to deny
Jewish schools autonomy over their faculty and could
likewise be used to deny Jewish charities autonomy
over their leadership. A court has found, for example,
that teachers at a synagogue school who were
responsible for “teaching Jewish rituals, values, and
holidays, leading children in prayers, celebrating
Jewish holidays, and participating in weekly Shabbat
services” were not covered by the exception because the
teachers did not bear a sufficiently religious title. See
Su v. Stephen S. Wise Temple, 32 Cal. App. 5th 1159,
1168 (Ct. App. 2019). That same approach could also
be applied to interfere with other Jewish organizations’
critical staffing decisions unless the staff member is
labeled with a sufficiently ministerial title. Indeed,
former employees have previously sued Jewish
organizations on the view that their actions are not
sufficiently religious to warrant protection. See, e.g.,
LeBoon v. Lancaster Jewish Cmty. Ctr. Ass’n, 503 F.3d
217, 226–31 (3d Cir. 2007) (resolving claim based on
Title VII’s “religious organizations” exemption);
Shaliehsabou v. Hebrew Home of Greater Washington,
Inc., 363 F.3d 299, 308–10 (4th Cir. 2004) (same).
Furthermore, an overly rigid test necessarily
requires courts to meddle in religious doctrine by, first,
determining what is and is not a “religious” function
and then, second, assessing how much religious activity
is sufficient to qualify the employee as a “minister” in
the given faith.
In Biel v. St. James School,
StJ.APP.5a, the Ninth Circuit determined that the
teacher’s commitment to work “within [the school’s]
overriding commitment to Church doctrines, laws, and
norms and [to] model, teach, and promote behavior in

14
conformity to the teaching of the Roman Catholic
Church,” was not sufficiently religious to bring the
teacher within the exception. In the court’s view, the
time she spent teaching doctrinal classes, “thirty
minutes a day, four days a week,” id., was simply not
enough. These results occurred despite the fact that, in
both Biel and Su, the employee was clearly “a
messenger or teacher of [the] faith.” Hosanna-Tabor,
565 U.S. at 199 (Alito, J., concurring). Thus, the
courts’ rigid analysis denied the schools their religious
freedom to control the “expression and propagation of
shared religious ideals.” Id. at 200.
Outside of the education context, this sort of strict
timekeeping becomes even more fraught. As noted
above, many non-profit organizations and charities,
including various Jewish organizations, engage in work
that is driven by a religious mission, but that also,
necessarily, includes non-sectarian duties. Where a
charity organization gives food to the poor, for example,
it is difficult to determine whether that activity is
religious or secular without intruding into the
motivations which guide the charity. Many Jewish
charities have programs to feed the needy; they also
have programs to provide special meals to the faithful
on Jewish holidays, such as Sukkot. A court applying
a mechanistic timekeeping test is forced to determine
which acts are religious. Is providing food to
impoverished people a “ministerial” activity always,
never, or only on Jewish holidays? Even if a court
could make this determination without violating the
First Amendment, it would then have to determine
what percentage of time spent on religious activity
qualifies an organization for the ministerial exception.

15
Both of these determinations require intrusive
oversight of the nature and quality of religious activity,
and are therefore inappropriate under the religious
clauses of the First Amendment.
Not all courts have misapplied the exception. In
Grusgott v. Milwaukee Jewish Day School, Inc., 260
F. Supp. 3d 1052 (E.D. Wis. 2017), aff’d, 882 F.3d 655
(7th Cir. 2018), a federal court was asked to adjudicate
an employment discrimination lawsuit against a
Jewish school. The employee asserted that the
ministerial exception should not apply to her in part
because she did not have a ministerial title and further
that her duties—teaching Jewish studies and Hebrew
language—were not religious. Id. at 1056. The court
first rejected her lack of title as dispositive. “[Plaintiff]
is not an ordained minister and no one held her out as
one, and her job did not require prior religious training
or commissioning. In Plaintiff’s case, however, these
formalistic factors are greatly outweighed by the duties
and functions of her position.” Id. at 1058. The court
also determined that teaching Jewish culture and the
Hebrew language were religious duties, essentially
because the school believed they were. “Plaintiff’s
argument questions the tenets of Defendant’s practice
of Judaism, namely whether they can hold Hebrew as
sacred. The First Amendment clearly protects
Defendant’s right to choose its religious beliefs, and the
Court is unable to interfere in what is a matter of
faith.” Id. at 1060.
Finally, the court refused to “consult a stopwatch to
determine the ratio between her religious and secular
instruction.” Id. Rather, given that “a substantial

16
portion of her classroom activities were directed at
teaching the Jewish faith,” the court determined that
she was a minister for First Amendment purposes, and
dismissed the claim. Id. This type of analysis, with a
focus on the “duties and functions” of an employee,
with deference to the expressed beliefs of the
organization in question, is compelled by the First
Amendment and this Court’s decision in HosannaTabor. A mechanical approach, which requires courts
to weigh the beliefs of religious organizations, and then
to calculate a ratio of time spent on certain duties,
violates both. “[T]he mere adjudication of such
questions would pose grave problems for religious
autonomy . . . .” Hosanna-Tabor, 565 U.S. at 205–06
(Alito, J. concurring).
At bottom, the decisions below evince an implicit
attitude that the ministerial exception should be
narrowly construed so as to intrude as little as possible
on the application of employment discrimination
statutes. But that view confuses the order of priority.
The ministerial exception protects fundamental
constitutional rights protected by the Free Exercise
Clause, and it avoids government intrusion on religious
matters that is prohibited by the Establishment
Clause. If anything, the exception should be granted a
broad berth, not a narrow one, because it “protects a
religious group’s right to shape its own faith and
mission through its appointments,” and “prohibits
government involvement in such ecclesiastical
decisions.” Id. at 188–89 (majority opinion). Thus,
rather than serving as some derivative adjunct of the
First Amendment, it is the lifeblood of the
Constitution’s religious protections.

17
The Court should therefore reverse the Ninth
Circuit’s crabbed view of the First Amendment and
protect religious autonomy through a more nuanced,
holistic application of the ministerial exception.
CONCLUSION
For the foregoing reasons, this Court should reverse
the decisions of the Ninth Circuit.
Respectfully submitted,
STEVEN B. FEIRSON
MICAH BROWN
DECHERT LLP
Cira Centre
2929 Arch Street
Philadelphia, PA 19104
(215) 994-4000

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
michael.mcginley@dechert.com

Counsel for Amici Curiae
February 10, 2020

